<html>
<title> - HEARING ON THE FISCAL YEAR 2022 PROPOSED BUDGET FOR THE U.S. ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[Senate Hearing 117-43]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 117-43

                 HEARING ON THE FISCAL YEAR 2022 PROPOSED 
                  BUDGET FOR THE U.S. ENVIRONMENTAL PRO-
                  TECTION AGENCY

=======================================================================

                                HEARING

                               BEFORE THE
                               
                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2021

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-187 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------        
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                  THOMAS R. CARPER, Delaware, Chairman
BENJAMIN L. CARDIN, Maryland         SHELLEY MOORE CAPITO, West 
BERNARD SANDERS, Vermont                 Virginia, 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      KEVIN CRAMER, North Dakota
TAMMY DUCKWORTH, Illinois            CYNTHIA M. LUMMIS, Wyoming
DEBBIE STABENOW, Michigan            RICHARD SHELBY, Alabama
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
                                     DAN SULLIVAN, Alaska
                                     JONI ERNST, Iowa
                                     LINDSEY O. GRAHAM, South Carolina

             Mary Frances Repko, Democratic Staff Director
               Adam Tomlinson, Republican Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 28, 2021
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................     3

                                WITNESS

Regan, Hon. Michael S., Administrator, U.S. Environmental 
  Protection Agency..............................................     6
    Prepared statement...........................................     8
    Responses to additional questions from:
        Senator Markey...........................................    12
        Senator Kelly............................................    14
        Senator Capito...........................................    15
        Senator Inhofe...........................................    35
    Response to an additional question from:
        Senator Shelby...........................................    36
        Senator Wicker...........................................    37
        Senator Sullivan.........................................    38

                          ADDITIONAL MATERIAL

Letter to Hon. Michael Regan, Administrator, U.S. Environmental 
  Protection Agency, from the Environmental Protection Network...    73
2035, the Report: Plummeting Solar, Wind, and Battery Costs Can 
  Accelerate Our Clean Electricity Future, Goldman School of 
  Public Policy, University of California-Berkeley, June 2020....    85
2035, the Report, Transportation: Plummeting Costs and Dramatic 
  Improvements in Batteries Can Accelerate Our Clean 
  Transportation Future, Goldman School of Public Policy, 
  University of California-Berkeley, April 2021..................   122
Special Report: Global Warming of 1.5 Degrees Celsius, https://
  www.ipcc.ch/sr15/, accessed January 28, 2021...................   188
5 Action Steps for the EPA to Lead a National Mobilization to 
  Defeat the Climate Crisis, Evergreen Action, December 17, 2020.   196
FACT SHEET: President Biden Sets 2030 Greenhouse Gas Pollution 
  Reduction Target Aimed at Creating Good-Paying Union Jobs and 
  Securing U.S. Leadership on Clean Energy Technologies, The 
  White House, April 22, 2021....................................   201
Leaders Summit On Climate, U.S. Department of State, accessed 
  April 23, 2021.................................................   206
Does Biden's American Jobs Plan Stack Up on Climate and Jobs?, 
  World Resources Institute, April 1, 2021.......................   212
Biden budget's $14 bln hike for climate includes big boosts for 
  EPA, science, Reuters, April 9, 2021...........................   223
Biden's EPA pick has experience lifting a discouraged agency, 
  Roll Call, December 18, 2020...................................   227
Biden's EPA gets serious about funding environmental justice, The 
  Hill, April 15, 2021...........................................   233
EPA lost more than 1,500 workers in first 18 months of Trump 
  administration: report, The Hill, September 8, 2018............   236
E.P.A. Chief Scott Pruitt Resigns Under a Cloud of Ethics 
  Scandals, the New York Times, July 5, 2018.....................   238
The U.S. Has a New Climate Goal. How Does It Stack Up Globally?, 
  the New York Times, updated April 22, 2021.....................   243
Biden budget seeks to flip script on Trump administration's 
  spending priorities, the Washington Post, April 9, 2021........   250
Staff exodus hits EPA under Trump: `I could do better work to 
  protect the environment outside,' the Chicago Tribune, 
  September 8, 2018..............................................   253

 
     HEARING ON THE FISCAL YEAR 2022 PROPOSED BUDGET FOR THE U.S. 
                    ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                       WEDNESDAY, APRIL 28, 2021

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 10:04 a.m. in 
room 301, Dirksen Senate Office Building, Hon. Thomas R. Carper 
(Chairman of the Committee) presiding.
    Present: Senators Carper, Capito, Cardin, Whitehouse, 
Markey, Duckworth, Stabenow, Kelly, Padilla, Inhofe, Boozman, 
Wicker, Sullivan, and Ernst.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Good morning, everyone. I call the 
Committee to order.
    We are pleased to welcome back before us our Administrator 
Michael Regan before our Committee as we prepare to discuss 
President Biden's Fiscal Year 2022 Fiscal Proposal for the 
Environmental Protection Agency.
    Welcome. It is great to see you. Thank you for joining us 
earlier today on another call.
    It has been some time since this Committee has held a 
hearing on the EPA budget. I want to thank Administrator Regan 
for returning before us so soon after his confirmation a little 
over a month ago.
    I also want to acknowledge that a leader is only as good as 
the team around him or her, and I am very pleased and grateful 
with this Committee's work to confirm Janet McCabe on the floor 
yesterday by 52-44 vote as Deputy Administrator at EPA.
    While not everyone our Committee voted for confirmation, I 
really do appreciate the spirit of goodwill that everyone has 
demonstrated. The Administrator just talked to me again about 
his interactions with some of the members of this Committee, 
how much he appreciated those. I think it bodes well for the 
work we have ahead of us to ensure cleaner air, cleaner water, 
and a better future for the American people.
    With that, let me get started. It is oftentimes said that 
budgets are about priorities. While President Biden has only 
released a bare bones budget to date, it is clear that the 
Administration's priorities are aligned, at least in my view, 
with the needs of the American people. The budget focuses on 
protecting public health, supporting our Nation's economic 
recovery, and addressing the greatest threat that we face, and 
that is the climate crisis.
    Over the last decade, EPA simply hasn't been provided with 
the resources it needs to get the job done. The agency has been 
largely flat funded almost for a decade, a funding commitment 
that has undermined EPA's mission.
    Over the last 4 years, we have seen unfortunate 
Administration proposals to slash the agency's budget by 30 
percent--30 percent. That would have made EPA's ability to 
respond to a host of environmental challenges facing us even 
more daunting.
    That is why I am pleased that President Biden's proposed 
fiscal year 2022 budget would largely restore the agency's 
degraded capacity by increasing its budget by roughly 20 
percent. This restorative budget is necessary for EPA to have a 
fighting chance to ensure the hopes and expectations of a 
President and Congress 50 years ago are realized today.
    At no time in recent memory has the need for investment in 
American health been more urgent than today, as we emerge from 
the worst pandemic in 100 years. As we know, over the past 
year, the coronavirus has taken over a half-million lives and 
has been especially deadly for many communities of color, low 
income communities and rural communities throughout our 
country. These are the communities that have been most 
assaulted by pollution over the years.
    As co-founder of the Senate Environmental Justice Caucus 
along with Senators Duckworth and Booker, I am gratified to see 
that this budget focuses on protecting the needs of these 
communities, something that I know you, Administrator Regan, 
have prioritized at EPA.
    I am also encouraged to see the Administration treat the 
ever growing threat of the climate crisis with the urgency that 
it deserves. If we are going to successfully cut greenhouse gas 
emissions in half by the end of this decade while creating 
millions of new jobs, we need a strong EPA that uses science as 
its north star and has the resources that it needs to 
effectively seize this opportunity.
    As we shift toward the clean energy solutions of the 
future, we must make smart, new investments in infrastructure 
and work force development to support these efforts. The 
President's budget reflects the vision of this Nation that we 
can look to for inspiration as we work together to deliver on 
the promises of cleaner air, cleaner water in every zip code 
and create good paying American jobs to position our economy 
well into the future. In this Congress, EPA is already hard at 
work to realize that vision.
    Senator Capito and I, with a whole lot of input from our 
colleagues throughout the Senate, are drafting a Surface 
Transportation Reauthorization bill, and we have bipartisan 
water legislation currently before the full Senate, I think 
tomorrow. We are looking forward to a debate and hopefully a 
strong passage of that bill with a bipartisan vote.
    That spirit of bipartisanship is at the core of EPA's 
story, whether the Chair was Jim Inhofe, or Barbara Boxer, or 
John Barrasso, or me. It is in our DNA, and we want to keep 
that routine as long as we can.
    Coincidentally, when the EPA was created over 50 years ago, 
our country was facing enormous challenges due to dangerous 
levels of air and water pollution. In 1965, a study by the New 
York City Council found that breathing New York's air had the 
same effect as smoking two packs of cigarettes a day. Think 
about that, two packs of cigarettes, just by breathing the air 
in New York City.
    In response, spurred by life threatening air pollution, not 
just in New York City, but all over the country, a burning 
Cuyahoga River in Cleveland, just north of where I went to 
college, and a host of horror stories borne of rampant 
emissions and discharges across the landscape, President 
Richard Nixon--imagine that, President Richard Nixon-- 
established EPA with the affirmation of both Republicans and 
Democrats in Congress. They tasked this new agency with 
protecting our air, protecting our water, and protecting our 
health.
    Since that time, we have made tremendous progress in 
improving our Nation's air quality, providing safer drinking 
water, cleaning up hazardous waste sites and protecting against 
harmful chemicals. Today we face perhaps even greater 
challenges, a deadly pandemic, the worst economy since the 
Great Depression, and the urgent crisis of climate change.
    On top of all that, another challenge persists at EPA, that 
is, how do we build agency morale after years of undermining 
it. To EPA's career employees, who have persevered through this 
turmoil, our Nation owes you a heartfelt thank you.
    I will conclude by saying this. The challenges before us 
are great. But as my colleagues and Administrator Regan 
oftentimes hear me quote Albert Einstein, in adversity lies 
opportunity. Lots of adversity, but also plenty of opportunity.
    We have Joe Biden as our President, our old colleague as 
our President, and Michael Regan as EPA Administrator, two 
people who I believe are uniters, not dividers. Now we have an 
opportunity to come together to face the crises before us, 
united in common purpose.
    With new and capable leadership, strengthened by a 
restorative budget proposal, EPA and the rest of us face 
brighter days ahead, especially if we continue to make more 
progress on vaccination, on vaccinating Americans.
    Michael, we look forward to hearing from you about how you 
plan to bring us to that brighter future.
    With that, I want to turn first to our Ranking Member, 
Senator Capito, for any remarks that she might like to make.
    Welcome, and thank you, Senator Capito.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you, Chairman Carper, and thank you 
for having today's hearing on the EPA's budget proposal for the 
upcoming fiscal year.
    Administrator Regan, welcome back to the Committee. 
Congratulations on your confirmation. I think this is the first 
chance I have had to tell you that in person. I greatly 
appreciated your commitment throughout the nomination process 
to regular and transparent communication with Congress, and 
your presence here today is a testament to that commitment. So, 
thank you.
    I look forward to hearing more about the President's budget 
proposal and your vision for the EPA. We all want a Government 
that serves the American people and is receptive to their 
needs. While we work together to develop bipartisan legislation 
and policies through regular order, we increase our chances of 
achieving that goal.
    I want to thank Chairman Carper for following that approach 
to developing a drinking water and wastewater infrastructure 
bill that is on the floor this week. We are all excited about 
that in this Committee, aren't we? Yes.
    Administrator Regan, I thank you and your team for their 
technical assistance to our Committee staff in developing this 
bill. It has been absolutely critical. We look forward to 
pushing for its enactment into law and eventual implementation 
by EPA.
    I also want to thank the Administration for pushing forward 
with the publication of the regulatory determination for PFAS 
and PFOA, you and I have talked about this many times, under 
the Safe Drinking Water Act following my letter that I wrote to 
Chief of Staff Ron Klain. Setting drinking water standards that 
follow the regulatory process is another example of an area 
where there is bipartisan agreement.
    I look forward to hearing more from you during this hearing 
about the status of the agency's activities under the PFAS 
action plan that was released in 2019.
    An area where I have real concerns, however, is the 
direction that the agency is taking, and the Administration is 
taking, with climate. I do not believe a bipartisan approach to 
climate regulation is being followed by the EPA so far. I hope 
that you can change that. The Biden administration has rolled 
out historic numbers of new climate actions by executive order.
    Last week, the Administration unveiled a new U.S. 
nationally determined contribution under the non-binding Paris 
Agreement. The Administration promises to meet that new target 
through new regulations. I fear that the Biden administration 
intends to double down on its regulation of the American energy 
sector while letting China take our place as a global energy 
leader.
    The budget proposal we are discussing today, unfortunately 
limited in its detail, calls for $14 billion more to be spent 
on climate across almost every agency. That is the entire 
President's budget. EPA's overall budget would grow by 20 
percent. The Chairman has talked about that.
    Part of that requested increase is to fund implementation 
of climate regulations under the Clean Air Act. I am concerned 
this request signals a desire to reimpose over-reaching climate 
regulations.
    We want to get to the same place here, I think all of us 
do, in terms of clean air and less emissions.
    West Virginia saw the effects of aggressive climate 
regulations combined with difficult economic conditions during 
the Obama administration. I don't want to repeat that history 
as we come out of this pandemic.
    Regulations like the Clean Power Plan had such tremendous 
implications for States like ours. It created, for me, 
environmental justice concerns.
    You and I have talked about this. I know environmental 
justice is important to you, and it is to me as well. Without 
question, the climate regulations of the Obama administration 
contributed to ``disproportionately high and adverse effects on 
the health of low income populations in West Virginia.'' The 
economic decline since 2008 in some parts of my State is 
shocking.
    As John Deskins from West Virginia University testified at 
a House hearing last month, the decline of the coal industry 
has cost West Virginia 15,000 jobs and $3.5 billion in direct 
economic impact. Deskins observed that the concentration of 
these job losses created a great depression in six southern 
West Virginia counties.
    Economic decline has left behind a cycle of drug abuse, 
poverty, despair, and health implications.
    I think sometimes we struggle to define environmental 
justice, what it is and what it is not. Executive Order 12898 
on Environmental Justice was signed by President Clinton in 
1994, and has been implemented by Democrat and Republican 
Presidents. I think it offers a perspective on environmental 
justice that we can all agree with.
    The Executive Order tasks the EPA and other agencies with 
``identifying and addressing as appropriate disproportionately 
high and adverse human health or environmental effects of its 
programs, policies, and activities on minority populations and 
low income populations.''
    Environmental justice is meant to prevent negative impacts 
on low income populations from regulations before they happen. 
Environmental justice for West Virginia means recognizing that 
some regulations can harm communities, and making a decision 
not to enter a regulation would be maybe the better path.
    I look forward to discussing with you how we can work 
together. I appreciate your openness, I really do, to ensure 
new climate regulations that could present some harm to 
communities like I have described in my State and across the 
country, that we prevent those from moving forward.
    I also look forward to discussing other environmental 
issues, from ensuring safe drinking water, to cleaning up 
contaminated land, and these are places where I know we can 
work together.
    Thank you again for joining us today, and thank you, Mr. 
Chairman.
    Senator Carper. Senator Capito, thank you very much for 
those remarks.
    After our Administrator testifies, I am going to step 
aside, and Senator Capito, if you want to ask the first round 
of questions, feel free. I will yield to other members of the 
Committee who may have greater pressing matters to get to.
    So with that, Mr. Regan, we are delighted that you are 
back, and we wish you and your family all the best. Welcome, 
tell them we said hello, and please proceed.
    Thank you.

    STATEMENT OF HON. MICHAEL S. REGAN, ADMINISTRATOR, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Regan. Thank you.
    Thank you, Chairman Carper, and Ranking Member Capito, and 
members of the Committee.
    I am grateful for the opportunity to appear before you 
today to discuss the U.S. EPA's discretionary funding request 
for fiscal year 2022.
    For half a century, EPA has helped provide the American 
people with clean air to breathe, clean water to drink, and 
safe, healthy land.
    The EPA's dedicated public servants, including seven staff 
members who have been with the agency since its inception in 
1970, work every day to improve the lives of people across this 
great Nation, and have risen to meet the challenges presented 
to us as a result of the COVID-19 pandemic.
    Earlier this month, President Biden sent to Congress a 
discretionary funding request for the Environmental Protection 
Agency at $11.2 billion. We believe this request will help 
ensure EPA can continue to meet the essential mandate, set the 
stage for our Nation's economic recovery, and provide the 
resources necessary to confront our environmental challenges, 
especially in our most overburdened communities.
    The President has seized this moment to reimagine a new 
American economy that leads the world in advancing clean 
energy, modernizing our infrastructure while enabling it to 
withstand the impacts from climate change, and rights the 
historic wrongs of environmental injustices that have held back 
generation of Black, LatinX, indigenous, and low income 
communities. This funding request reflects the understanding 
that a healthy environment and a healthy economy are not 
mutually exclusive. They actually go hand in hand.
    These investments will provide a tremendous opportunity to 
leverage American innovation, put people back to work, and 
protect our communities, our families, and our children from 
environmental hazard and harm. In short, this request 
recognizes the profound urgency and existential threat of the 
climate crisis, and provides EPA with the resources essential 
for fulfilling our mission to protect human health and the 
environment, which creating good paying American jobs.
    Ensuring access to clean and safe water for all Americans 
impacts our Nation's climate resilience, and is integral to 
advancing environmental justice. At EPA, we have seen that 
investing in water infrastructure is a win-win for public 
health and economic development. EPA's Water Infrastructure 
Finance and Innovation Act loan has helped finance $19.4 
billion in water infrastructure and helped to create over 
47,000 jobs nationwide.
    The 2022 funding request requests $3.6 billion for EPA to 
rebuild our water infrastructure. It is an increase of more 
than $600 million over the fiscal year 2021 enacted level. This 
includes targeted increases to the State Revolving Loan Funds 
to assist States, tribes, and territories with infrastructure 
projects that help provide safe drinking water and clean water 
in communities all across this country.
    Water infrastructure investments, however, represent only 
one side of ensuring safe and clean water. The agency will 
invest resources and expand its efforts to address the 
pervasive and persistent chemical known as PFAS found in our 
drinking water.
    As part of the President's commitment to tackle PFAS 
pollution, this funding request provides approximately $75 
million to accelerate toxicity studies and funds research to 
inform the regulatory developments of designating PFAS as 
hazardous substances, while setting enforceable limits for PFAS 
under the Safe Drinking Water Act. Additional funds for 
technical assistance grants have also been set aside for State 
and local governments to deal with PFAS contamination in their 
communities.
    Under the President's leadership, we are heeding our call 
of the youth who are courageously urging world leaders to fight 
the climate crisis with the innovation, fortitude, and resolve 
that it demands. This budget invests in programs that will help 
reduce greenhouse gas emissions, including an additional $100 
million for air quality grants to go to States and tribes to 
tackle emission levels on the local and regional scale.
    An additional $30 million will also help improve knowledge 
and impacts of climate change on human health, the environment, 
and infrastructure, through our research programs, more than 
doubling EPA's climate change research and additional 
investments to decrease emissions of methane and HFCs.
    Much like climate change, environmental justice underpins 
all of our work. The pandemic ignited a perfect storm for 
communities of color and low income communities who already 
bear the burden, the highest burden of pollution, suffer the 
highest rates of mortality from heart and lung disease, and now 
COVID-19, too.
    This budget invests $936 million toward a new accelerating 
environmental and economic justice initiative that will help 
create jobs, clean up pollution, implement the Justice 40 
initiative, and advance racial equity and secure environmental 
justice for communities who have often been left behind.
    With that, Chairman and members of the Committee, the 
fiscal year 2022 budget will help to ensure EPA can meet the 
interconnected health and environmental crisis we face, lift up 
communities who have long been left behind, and put the Nation 
on a prosperous path for economic recovery. This funding 
request lays down a marker that EPA is ready to meet the 
moment.
    Thank you for the opportunity to testify. I look forward to 
our continued partnership, and welcome today's questions.
    [The prepared statement of Mr. Regan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Administrator Regan, thank you very much 
for those words, and again, for your presence today.
    Senator Capito, would you like to lead us off, please?
    Senator Capito. Sure, thank you.
    And thank you for your statement, and I will get right to 
it.
    Last week, the Administration pledged to reduce greenhouse 
gas emissions by 50 percent to 52 percent from 2005 levels by 
2030 as part of an international climate summit organized by 
the President. According to a White House fact sheet, the 
National Climate Task Force developed those figures from ``a 
detailed bottom up analysis, standards incentives programs, and 
support for innovation were all weighed in the analysis.''
    I know that you are a member of that task force. So I am 
interested to know more about what EPA's role was in developing 
this, which EPA regulations did they rely on to get to this 
admissions pledge. And I also would like to know if it is 
public information we could see how these figures were arrived 
at.
    Mr. Regan. Thank you for the question, Senator. I believe 
and know that EPA is central to the NDC number that was 
developed. What we did as part of our contribution, I would 
like to acknowledge that the NDC number is a governmentwide 
approach.
    Senator Capito. Right.
    Mr. Regan. Not purely from regulation, but looking at all 
of the agencies' contributions through regulatory and non-
regulatory.
    Our role will be critical. I think we projected what we can 
accomplish and do through our non-regulatory and regulatory 
programs. So when we look at what we are planning to do with 
tailpipe emissions standards on our vehicles, when we look at 
what we plan to do on regulations that focus on emission 
reductions, and when we look at what we plan to do in concert 
with the Clean Power Plan, those are just a few of the 
regulatory actions that were considered in the NDC.
    Along with voluntary programs that we have, our Energy Star 
program, looking at our partnerships with agriculture and all 
the work that they are doing on a non-regulatory level.
    So we attempted to quantify EPA's role and its contribution 
to meeting that NDC. We believe that it is a good target.
    Senator Capito. Are those figures, you have mentioned quite 
a few, are those available for public view to see what you 
estimated the emissions reduction targets would be under those 
programs?
    Mr. Regan. I think the information that we generated that 
focuses on conceptually where these regulations might land 
within a range, that information can be made available.
    Senator Capito. Thank you. I would like to see that.
    Last year, the President signed two pieces of legislation 
in the Diesel Emissions Reduction Act, and also the USEIT Act, 
which helps EPA to support carbon capture utilization and 
sequestration research and permitting. I am wondering, and this 
was touted at the time, certainly, the AIM Act, which is, I 
think, the Diesel Reduction Act--no, I am sorry. The American 
Innovation and Manufacturing Act, is another one of these, your 
HFCs. Your HFCs, our HFCs. It is perhaps the most significant 
climate legislation.
    Your budget and your testimony do not mention the USEIT Act 
or the AIM Act. Is this still EPA top priority, and are you 
going to begin the regulatory framework for this? This is 
obviously something we came together on, and it is important to 
all of our members.
    Mr. Regan. Absolutely. Absolutely, it goes not unnoticed 
that the AIM Act is one of the most important pieces of 
legislation to combat climate change. I am happy to report that 
we are excited about that bipartisan piece of legislation, and 
we are on track, we are on track for developing the regulations 
and the implementation associated with that.
    Senator Capito. Knowing that regulations take a long time 
to roll out, are we talking years, here? Six months? How do you 
quantify that?
    Mr. Regan. I would have to take a look at exactly what the 
timeframe is. I can tell you it is a priority. I just had a 
briefing and a discussion this week. So we can get the specific 
timeline.
    But we recognize the urgency and the importance of the 
legislation. We can provide you with those details.
    Senator Capito. OK, let's talk PFAS here for just a minute. 
You mentioned it, and certainly I mentioned it as well. While 
EPA has made a lot of progress under the PFAS action plan, 
there is obviously a lot of work left to do. As you and I have 
talked, we need to make sure we have the sound science here.
    You are requesting $75 million focused on PFAS studies and 
research. Could you give a few more details?
    Also, that drinking water standard is where I have a great 
deal of interest. I want to know where you all are on that and 
where you think you might be able to give us something more 
definitive in your action plan.
    Mr. Regan. Yes, I will say that, and obviously for the $75 
million there would be a lot more detail in the full budget to 
come. But we are moving full steam ahead.
    Setting that drinking water standard is very important to 
us. We are moving ahead with that. I think we had to make up 
for some lost time to ensure we had the best science informing 
that drinking water standard and looking at our statutory 
authority.
    In addition to setting that drinking water standard, we are 
also looking at the science behind designating PFAS as a 
hazardous substance. We want to be able to look across multiple 
EPA programs.
    So we are having a look at PFAS, and the applicability of 
CRCLA. We are looking at PFAS as it relates to a drinking water 
standard. And we are also looking at, I have actually set up a 
PFAS council within the agency to be sure that as we look at 
our Superfund-Brownfields approach, CRCLA approach, rather, and 
looking at our drinking water approach, that we are looking at 
PFAS in its totality, that we recognize it is a pervasive 
chemical, it is impacting many communities.
    So in addition to the regulations, we also have some 
remediation and cleanup that we know needs to be done and needs 
to be done fairly quickly. So we are taking a comprehensive 
look at it.
    Senator Capito. Good, thank you.
    A quick question. You allude to a lot of research, 
additional research dollars. I am curious to know, those 
research availabilities, they are spread all over the country, 
I would imagine, to different higher education institutions. It 
is not done just within the EPA. Is that a correct assumption 
on my part?
    Mr. Regan. It is. Many of these chemical compounds, there 
is just not a lot known about the health impacts. So when we 
think about setting regulations, we want to be sure that we set 
the regulations at the appropriate level. We don't want to miss 
that mark.
    So the more we can convene with our academic institutions, 
the CDC and others, to be sure that we have the right amount of 
science and health studies to set these regulations, I think 
the better off it is for all of us.
    Senator Capito. So I would encourage you, if you do get the 
available funds, and you are expanding your research, to maybe 
go outside what would be your typical universities or colleges 
that are known as the biggies, I will call them, the big guys, 
to look at West Virginia University or Marshall University, the 
universities all throughout this country that have a great deal 
of bandwidth to be able to do these kinds of things, looking 
for research opportunities. Particularly in our State, having 
been the ones that are sort of at the tip of the spear of a lot 
of these regulations, I think it would help us become part of 
that solution.
    So I would encourage you at EPA to look in that direction.
    Thank you.
    Mr. Regan. Thank you.
    Senator Carper. In the Navy, when we are wanting somebody 
to take home a particular message, whoever is instructing a 
class or whatever, they would stomp their foot, and we would be 
reminded to take notes. That was probably a foot stomper right 
there.
    Thanks for those questions and responses.
    We have on deck, Senator Cardin, I believe, is next by 
Webex, followed by Senator Inhofe. Senator Markey is next on 
Webex and Senator Boozman after that.
    Senator Cardin, you are up, and then Senator Inhofe, on 
deck.
    Senator Cardin. Mr. Chairman, thank you very much.
    Administrator Regan, thank you for your leadership at EPA. 
I want you to know, many of us are very supportive of President 
Biden's commitment in regard to the Climate Summit and what 
America will do. We are going to be a global leader because we 
recognize this is a global problem, and we have to lead by 
example. So there is strong support for the initiatives of the 
Administration.
    I want to follow up on a conversation we had a little bit 
earlier today in regard to clean water and the availability of 
clean water and the environmental justice issues, then climate 
resiliency and water infrastructure. We are going to give you 
some additional help today in a bipartisan bill that we expect 
to pass on the floor in regard to clean water, drinking water, 
and wastewater.
    I want to deal with the issue that, in dealing with 
resiliency, there is a cost issue to the local agencies. The 
ability to deal with this by the ratepayers presents 
significant affordability challenges.
    So in the legislation we are considering on the floor, 
there is a pilot program that was offered by Senator Wicker and 
myself that will allow you to establish pilot programs to deal 
with the affordability issue. I know you have other tools 
available in your tool kit to deal with this.
    I really want to hear how this budget that is being 
submitted will help us deal not only with clean water, safe 
drinking water and wastewater, but how it will deal with the 
affordability. What resources can be made available to deal 
with the community challenges on the affordability of water?
    Mr. Regan. Senator, thank you for that question. It is an 
excellent question. I am so delighted that there is a 
bipartisan bill coming from this body that demonstrates that 
this is a bipartisan effort that is plaguing many communities 
across the country.
    The good news is that EPA has experience in this area with 
our water infrastructure grants and loan programs. So what we 
want to do is infuse capital into an infrastructure program 
that is tried and true, and that we have invested billions of 
dollars in over the years and helped to spur economic 
prosperity through those lenses.
    I think there are low interest and no interest loan 
programs as well as our grant programs. We have targeted 
criteria for those recipients who are best positioned to 
leverage these resources, whether it can be through a loan 
program that they can afford to repay or grant programs, where 
we have some of the challenges that you have raised.
    Water affordability is very important to this agency, being 
led out of OW by our Principal Deputy Radhika Fox. She brings a 
lot of experience on water affordability.
    We recognize in the moneys that we are asking for, we are 
asking for these resources that can focus on the infrastructure 
in general, the water quality aspects of them. But we have 
water affordability built into the funds that we are trying to 
distribute to ensure that it is not only good quality drinking 
water, but that our public can afford it.
    By the way, we are also building in resiliency, not only to 
climate change impacts, but to cyber threats as well. We 
estimate that there is about $743 billion worth of water 
infrastructure needs across this country. I know 18 to 27 alone 
in my home State of North Carolina.
    So the resources that we are requesting in the 2022 budget 
are a beginning for us. We are proud to see the $111 billion 
the President has proposed in the American Jobs Plan. It is 
going to take these resources matched with public and private 
investments to catch us up to be where we need to be.
    Senator Cardin. I support those efforts.
    Let me give you one other bipartisan initiative here, and 
that is the Chesapeake Bay. I have worked very closely with 
Senator Capito and others on our Committee. I know that your 
budget request requests additional funds for the agency. I hope 
that some of those resources will be used to expand the Federal 
partnership with the Chesapeake Bay, fill the position of the 
Chesapeake Bay czar, and just up the game with the Federal 
partnership in the Chesapeake Bay.
    Mr. Regan. Absolutely. We have requested resources to do 
exactly what you said, the way you said it, up the game and 
focus on the Chesapeake Bay, which is a national treasure, both 
ecologically and economically. So we are supportive in that 
area.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you, Senator Cardin. Thanks very much 
to you and the team that you lead, your staff, for all the good 
work that you have done in consultation and cooperation with 
Senator Capito and myself, Senator Duckworth, and others on our 
water legislation. Before the full Senate tomorrow, thank you.
    Next is Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Mr. Regan, confession is good for the soul. I confess that 
I came from the House to the Senate in 1994, and during that 
time, I can't think of any person who has possessed a position 
like yours that I have been more fond of but had to vote 
against than you.
    [Laughter.]
    Senator Inhofe. The reason for that was, I look at all 
these things that we are, they are attempting to do in this 
Administration. The job killing, I have a hard time figuring 
out why we are doing what we are doing.
    Why would we be encumbered here in the United States with 
regulations that are going to put people out of business, cause 
industries to leave the United States, and yet the largest 
polluter is China? I mean, China, right now, is building coal 
fired power plants at a rate outpacing the rest of the world 
combined.
    In 2020, China brought more than three times what was 
brought online elsewhere. Last year, China generated 53 percent 
of the world's coal fired power plants. We generated 19 
percent.
    Now, I guess I would start off with, how do you justify 
that?
    Mr. Regan. Senator, thank you for the question.
    Senator Inhofe. Are you sure?
    [Laughter.]
    Mr. Regan. I know it is on your mind and on the minds of 
others. I think what we saw last week was the President 
rallying the world to begin to address this issue, and China 
was at the table.
    I think with the American Jobs Plan and the direction we 
are headed, it is not solely an opportunity just to mitigate 
against climate impact, it is an awesome opportunity for us to 
lead in technological advancements and create jobs. We know 
that the markets are trending directionally in this way.
    I believe that is why the U.S. Chamber of Commerce and 
organizations like the Petroleum Institute are on board with 
looking at regulations that really pursue deep cuts in methane. 
The reality is that with CCS, with methane technologies and 
others, America is poised to cut deeply these greenhouse gases, 
but also deploy these technologies internationally.
    So we have an awesome opportunity to grab onto this, and 
not only create jobs domestically and ride the wave of where 
the market is going, but export these technologies as well, to 
get these deep emission reductions that we need to get.
    Senator Inhofe. Under this agreement, and this is kind of 
reliving what happened in the past, China gets a free ride. 
China doesn't have to--they can continue for their growth and 
those generations of energy for 15 years.
    Then you have India. In India, I assume, I haven't heard 
anything recently, since this has re-emerged, initially, in the 
initial Paris Accord, India was demanding billions and billions 
of dollars. I was looking for that figure, and I can't find it 
now.
    But anyway, they were, and so yes, they join in. Well, why 
not? I can understand that.
    In the case of China, I would say the greatest threat that 
we have with China is that we have to comply. Have you done any 
kind of a study that, what EPA regulations will be needed in 
order to meet President Biden's new Paris climate commitment? 
He has made a commitment, what we are going to do in the United 
States. What is going to be the cost of that commitment?
    Mr. Regan. I think the studies that we have done, and what 
we are actually doing in terms of meeting that commitment, is 
we are in constant communication, right now engaging with the 
automobile industry and the unions. We are engaging with many 
fossil fuel companies.
    I was on a call with EEI membership just 2 weeks ago, CEOs 
from the power plant sector, discussing exactly what we need to 
do to structure a process where we deploy the right 
technologies, keep these jobs in America, and get the jump on 
reducing greenhouse gases and methane.
    Senator Inhofe. Yes, but you know, Mr. Regan, since they 
have to meet these requirements, have we analyzed to see what 
the cost is going to be, and that would be incurred by 
industries here in the United States? Now, those industries, 
some of them, may take the position that, well, we can go to 
China, we can make more money and move our operation to China. 
That is the concern that is out there.
    Let me ask in a different way. Last week I introduced 
legislation that would ensure that China is held to the same 
emissions reductions commitment as the United States. Now, 
isn't that common sense?
    Mr. Regan. Senator, I just see America as a leader. The 
President's Jobs Plan isn't really following China, it is 
really looking at where the markets are driving and how we 
really harness the technological advancements that we are 
seeing.
    We are talking about CCS, we are talking about these deep 
methane cuts, we are looking at electric vehicles and talking 
with the automobile industry that believes they can get there 
in a timeframe where we can have all those jobs homegrown.
    I think this is a huge opportunity, and the President 
thinks this is a huge opportunity for a governmentwide approach 
to look at how we leverage resources to build American jobs, 
leverage technology in the market, and by the way, get some 
really deep emission reductions from methane and 
CO<INF>2</INF>.
    Senator Inhofe. OK. Have you done anything to determine 
what EPA regulations are going to be needed to meet the 
requirements?
    Mr. Regan. What we are doing now is we have provided sort 
of a range of how we think we play in that NDC number. As we 
develop our regulations, we will do the cost-benefit analysis, 
we will look at the cost of technologies.
    To answer your question directly, as we look at these 
regulations, there will be a number of technologies, timelines, 
and paths that we will be discussing with those who are 
regulated. It will be that combination of things that will 
ultimately yield a regulation that determines that final 
number.
    It is a work in process.
    Senator Inhofe. It is a work in process, but you don't 
know, and I am not--I don't think there is any way you could 
know at this point, what it is going to cost to comply with 
those regulations. They are going to have to do things that is 
going to be more expensive to operate. I think we all 
understand that.
    My concern is that China will not have to do that. There 
are many industries here in the United States that will 
actually benefit from more regulations in the United States 
because all they have to do is move to China, and there won't 
be any regulations.
    Senator Carper. Senator Inhofe, I hate to do this, but you 
are about 3 minutes over.
    Senator Inhofe. Yes, I know.
    Senator Carper. So I am going to ask you to hold it there, 
and if you have further questions, we may have some time at the 
end. If not, I know the Administrator will be happy to----
    Senator Inhofe. Yes, the reason I went over a little bit, 
Mr. Chairman, is that I can't stay for longer. And I wanted to 
be sure to get the point across that some things could happen 
to actually benefit some of our industries, encouraging them to 
leave and go to China and actually perform better.
    But we are the big loser here in the United States. I have 
run companies, I did that for a living before I got here.
    Thank you very much.
    Senator Carper. Thank you.
    Next, Senator Markey, on Webex.
    Senator Markey, welcome.
    Senator Markey. Thank you.
    Mr. Administrator, talk a little bit about methane, please, 
and what we can do in order to dramatically reduce the amount 
of methane which is coming out of the oil and gas sector.
    Again, just very clearly, that it is 80 times more powerful 
as a pollutant than CO<INF>2</INF> in terms of increasing the 
greenhouse effect, while simultaneously, especially in the oil 
and gas sector, it is the easiest thing to do in order to just 
eliminate that methane from going up into the atmosphere.
    Can you talk a little bit about that, and what the plans at 
the EPA will be to deal with that issue?
    Mr. Regan. Thank you for that question, Senator. Yes, 
methane is a potent, very potent greenhouse gas. We have been 
laser focused on this topic from day one, as I mentioned in my 
previous answer. We have been having conversations about how we 
best regulate methane emissions. The President has charged us 
to propose a rule on methane regulations this September.
    We know that there are a great deal of technologies, and 
the application of those technologies that make sense from a 
cost competitive standpoint as well as an opportunity to 
demonstrate in this country how we can reduce methane emissions 
while looking forward to exporting and leveraging those 
technologies in other countries.
    We are having conversations with the industry; we are 
having conversations with our internal technical experts. We 
are being driven by the science. We believe that there is a 
good convergence of what the science calls for and what the 
market can tolerate.
    Senator Markey. I agree with you, 100 percent. I just think 
this is something that is relatively easy for the industry to 
deal with, but again, it is going to require strong rules that 
are put on the books.
    With regard to the tailpipe emissions standards, or another 
way of saying that, just increasing the amount of--the 
efficiency of all the vehicles which we drive in our country. 
In Massachusetts, we work along with California, in order to 
set the highest possible standards. What is your goal on that?
    Mr. Regan. You might have seen earlier this week, we are 
revisiting the California waiver situation. I think we have 
taken step one of two steps to do what I believe we should be 
doing, which is to respect the statutory authority and the 
opportunity for States to lead. California is leading in that 
regard.
    In concert with that, in mid-July we will be looking at a 
proposed rulemaking that looks at the reduction in tailpipe 
emissions that we believe we need to achieve for vehicles 
between now and 2026. Following that, we will have another bite 
at the apple when we look at vehicles from 2026 and beyond.
    I think we are on pace to do some amazing things, and by 
the way, stay in pace with where many in the automobile 
industry have pledged to go on electric vehicles and the market 
demand for those vehicles.
    Senator Markey. Exactly. When General Motors says they plan 
on not making any additional internal combustion engines after 
2035, well, that just sets a standard that if we codify it and 
put it in the books, we have a real chance then to the whole 
industry follow that leadership.
    On the question of environmental justice, Congresswoman 
Cori Bush and I have introduced an Environmental Justice 
Mapping and Data Collection Act that we can make a law in the 
country that ensures that we actually identify all those 
communities in the United States that have been adversely 
affected by environmental injustice over the years.
    Could you elaborate, again, on what the Biden 
administration's plan is in terms of focusing on those 
communities? How helpful would an environmental justice mapping 
bill be to help you to do that job?
    Mr. Regan. Thank you for that question, Senator. I would 
love to learn a little bit more about that legislation. I 
believe that it would be very complementary and actually help 
accentuate many of the things that we are attempting to do at 
EPA.
    We have mapping tools, and we have data and information. 
But we need more. We can always do more. What we are seeing in 
this 2022 budget request, and also in the American Jobs Plan, 
it acknowledges that there are significant resources required 
to pay attention to past transgressions in terms of those who 
have been disproportionately impacted by pollution. We need to 
infuse environmental justice and equity into our rulemaking, 
into our policies, into our grant making. There is so much work 
that needs to be done.
    So I look forward to learning more about the legislation 
and the complementary aspects of that.
    Senator Markey. Would you consider elevating the Office of 
Environmental Justice to a standalone office, to give it more 
authority, more autonomy in its decisionmaking?
    Mr. Regan. Yes. I am in the process now of identifying an 
environmental justice advisor to come in and to do just that, 
to aggregate all of the environmental justice and equity work 
within the agency under one roof. Not just environmental 
justice and equity, but also civil rights.
    So what we are doing is, we are looking at unifying those 
efforts to be sure that they get the level of attention that 
they should but that they are integrated across all of the 
offices at the Environmental Protection Agency.
    Senator Markey. Great. It sounds like the kind of 
leadership our country needs. Thank you.
    And thank you, Mr. Chairman.
    Senator Carper. You are quite welcome.
    We have been joined by Senator Whitehouse.
    Welcome, Sheldon.
    I think next to join us by Webex is Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    Administrator Regan, thank you for being here today. I very 
much am glad to be able to speak to you.
    The EPA Office of Inspector General recently published a 
pair of reports that revealed the Trump administration's 
political appointees improperly interfered with the work of 
dedicated civil servants in the EPA Region 5 office located in 
Chicago. I originally requested these IG investigations after 
receiving troubling information, but even I was shocked by the 
scope of the abuse that investigators uncovered. This includes 
senior political appointees betraying their oath of office by 
instructing Region 5 staff to not monitor toxic emissions, hide 
reporting, suppress staff comments, break with standard 
protocols.
    I was particularly outraged to learn that the Trump 
administration delayed communicating potential health risks to 
Illinois residents who lived near ethylene oxide emitting 
facilities, even going so far as to edit Region 5's Web page to 
hide emissions data from my constituents.
    The EPA OIG also discovered that senior political 
appointees in the Office of Air and Radiation issued 
instructions that hindered Region 5's ability to effectively 
address ethylene oxide emissions.
    Ethylene oxide is a carcinogen that can cause lymphoid and 
breast cancer. Even for the Trump administration, the behavior 
uncovered by the IG represents a shocking dereliction of duty 
that places the well being of corporate polluters ahead of the 
health of Illinois families.
    Fortunately, the Biden administration is following through 
on its commitment to support EPA's dedicated work force. 
Administrator Regan, I am confident that under your leadership, 
Region 5 will be empowered to carry out its mission with 
integrity and urgency.
    Will you commit to working with me to prioritize the 
appointment of an excellent, permanent leader of EPA's Region 5 
office, and implementing the OIG recommendations to prevent the 
types of abuses that took place over the past 4 years from ever 
happening again?
    Mr. Regan. Thank you for that question. It is so disturbing 
to see the level of political interference and the lack of 
scientific integrity that took place over the past couple of 
years. I can commit to you, as a matter of fact, I had a 
meeting just this week with our Inspector General to talk 
through this very issue. They, rightfully so, are making sure 
and holding EPA's feet to the fire that we do things the right 
way moving forward.
    We are enjoying developing our relationship with the IG and 
trying to right these wrongs. We are going to do our best to do 
it as expeditiously as possible.
    I will commit to working with you on leadership in Region 
5. I will commit to you and work with you on not only this 
issue but many of the environmental justice clean air and clean 
water issues that you are doing such a great job in 
championing.
    Senator Duckworth. Thank you. I am looking forward to that.
    I do want to touch on environmental justice issues. As one 
of the co-founders of the Senate's first ever Environmental 
Justice Caucus, along with Senator Carper, I am committed to 
working with you to strengthen our tools to achieve restorative 
justice for long neglected communities. Senator Booker is 
working with me on this as well.
    I think critical in this effort to enhance environmental 
justice is to make sure we enhance our environmental justice 
mapping capabilities, so that EPA is able to integrate 
nationally consistent data and environmental and demographic 
indicators in maps and reports. Such a comprehensive data base 
will inform and improve development decisions, grant awards, 
community awareness, all of that.
    Do you agree with me that our efforts to build back better 
would be dramatically enhanced with the help of an effective, 
accurate, and continuously updated Federal environmental 
justice screening tool? Will you work with me to achieve this 
goal in the coming months?
    Mr. Regan. We absolutely believe that with more data we can 
have better performance. I do look forward to working with you 
on that, learning more about that legislation. But more 
importantly, my agency, with the request of the 2022 resources 
and the resources request in the American Jobs Plan, being able 
to partner with you in a very thoughtful and careful way and 
provide all of the technical expertise that you all need to be 
successful in that piece of legislation.
    Senator Duckworth. Thank you. Just to close, I have a 
little bit of time left, could you explain how passing the 
Drinking Water and Wastewater Infrastructure Act, along with 
implementing the American Jobs Plan, would put our Nation on a 
critical path toward eliminating lead service lines and 
updating vital sewage systems across the Nation?
    Mr. Regan. Absolutely. These are critical investments. 
EPA's estimate is this country has about $743 billion worth of 
wastewater and infrastructure needs as it relates to water 
quality. We know that lead is not only harmful to everyone, but 
significantly harmful to our children, reducing IQ, ability to 
pay attention, and other serious issues.
    With the legislation that you have championed in a 
bipartisan fashion, or are championing, and with the 2022 
budget request at EPA, in addition to the American Jobs Plan 
that is led by the President, we are beginning to take a look 
at how we really begin to spur job creation focused on 
infrastructure improvement, to improve water quality for every 
single person in this country, while also protecting and 
mitigating from climate change impacts and cyber security 
threats.
    There are so many wins in this equation I cannot see why we 
would not pursue it in the fashion that we are collectively.
    Senator Duckworth. Thank you so much, Mr. Administrator.
    I yield back, Mr. Chairman.
    Senator Carper. Senator Capito, who do you think should go 
next? Senator Whitehouse, since he is here live and in person?
    Senator Capito. He is a little sketchy, but we will go with 
him.
    [Laughter.]
    Senator Carper. All right, Sheldon, you are recognized. 
Please, go ahead.
    Senator Whitehouse. Welcome, Administrator. It is 
wonderfully good to see you.
    The Trump administration over and over again failed to 
follow science and tried to replace people who understood 
science with people who were shills for polluting industries. 
You have announced that you are planning on investigating the 
scope of that problem within EPA. You have already replaced 
some of the more egregious appointments whose original 
appointment was not consistent with the law. I congratulate you 
on that.
    What can you tell me about the status of the EPA internal 
investigation into meddling with the science on which your 
agency is supposed to depend?
    Mr. Regan. Thank you for that question. A couple of things. 
I think we are taking a careful look at what the IG reports are 
revealing to us, which are alarming. I am listening to the 
agency experts. I know many have cast the SAB and the CASAC 
replacements as being political, but it is the exact opposite.
    What I did was sought the expertise of the career 
scientists and the career staff to better assess who should be 
in these seats advising the agency. What we determined, as you 
stated, was the previous Administration followed a process that 
was unlike any process of any previous Administration, both 
Democrat and Republican. What it did was it soiled the process 
in itself.
    So we hit the reset button. What we are aiming to do is 
invite those who previously served and those new individuals 
who want to serve to reapply and provide the best scientific 
experience to us.
    While we are doing that, we are also following the advice 
of our science and doing a complete review of many of the 
regulations that were put forward in the previous 
Administration, and doing a full accounting. That was directed 
to us by the President, and that has been my goal, to take a 
look at all the regulations that lacked the scientific 
integrity or the legal acumen. Where we see that lacking, we 
are going to revise those regulations.
    Senator Whitehouse. Do you think that this conduct under 
the Trump administration was a kind of mass coincidence of some 
kind?
    Mr. Regan. I think that the previous Administration made 
poor decisions that lacked scientific integrity and lacked 
transparency.
    Senator Whitehouse. Do you think there was a reason for it?
    Mr. Regan. I don't pretend to know what the intentions were 
of those individuals. I have not spoken with them. What we have 
chosen to do is focus on where things have been done 
incorrectly or lack that scientific integrity or legal 
integrity. We are righting those wrongs.
    Senator Whitehouse. If it turns out that a lot of these 
examples were driven by the same force, were interconnected in 
some way, would that be worth EPA knowing? Or are you simply 
going to treat this as if this was just some kind of peculiar 
mass allergy to science that had no impetus behind it, no force 
behind it, no purpose behind it?
    Mr. Regan. I think as our staff reviews, especially our 
general counsel, reviews the actions that were taken, we are 
taking a look at what actually occurred, what the motivations 
were, and based on recommendations that I will get from my 
general counsel, that we will get from GAO, that we will get 
from the Inspector General, we will govern ourselves 
accordingly with the evidence as it is presented.
    Senator Whitehouse. Well, the great questions are always 
who, what, where, when, and why. I urge you not to overlook the 
why.
    At the same time, the White House has announced a task 
force on scientific integrity with a similar responsibility, 
but beyond EPA, to reach across agencies of Government and 
ferret out examples where the science was deliberately 
overlooked or ignored, or where special interests got access to 
the process, so that they could put their honchos in instead of 
people who actually understood the science and were willing to 
act on it.
    How is that going? Do you have any visibility into that 
process? I assume you are contributing to it in some way as one 
of the agencies of Government. What can you tell us about how 
well that is going?
    Mr. Regan. I can say that we will be contributing to that 
process. We are having these conversations. EPA has never and 
will not act in isolation. Many of the decisions that we make 
not only impact our stakeholders, but impact our sister 
agencies as well.
    So to your point, the wisdom behind it is a governmentwide 
approach. We are going to be a central player in that. We 
believe that what we are uncovering will inform that process, 
and what that process uncovers will inform ours as well.
    Senator Whitehouse. I will conclude by observing that if at 
the end of the day, nobody understands the cause of all of 
this, you haven't done your jobs.
    My time is up.
    Senator Carper. Senator Whitehouse, thank you for being 
here, and for those questions.
    I notice Senator Stabenow may be ready to join us on Webex.
    Senator Stabenow, are you there?
    Senator Stabenow. I am, Mr. Chairman. I have had the 
opportunity to listen for the whole hearing so far, and I want 
to congratulate you and our Ranking Member again on an 
excellent hearing.
    Administrator Regan, it is always wonderful to have an 
opportunity to talk with you.
    There are so many things that you will receive that affect 
Michigan that I care about deeply. I will limit my questions 
today, but I first have to say that I am very excited about 
what our American automobile industry is doing to really lean 
in aggressively, tons of billions of dollars in investments. As 
you have indicated, we all have an opportunity to be partners 
with them in doing something very, very significant. So I look 
forward to continuing to focus on those issues for sure.
    I want to follow up on something you and I have talked 
about privately. We are surrounded by water in Michigan, of 
course. In fact, the Great Lakes are warming faster than the 
oceans, which is incredibly concerning to all of us. We are 
seeing real world economic impacts right now of what is 
actually happening to damage the shoreline and buildings, 
homes, and a whole range of things.
    So it is critically important that we strongly fund the 
Great Lakes Restoration Initiative, GLRI. Since 2010, when I 
authored it, we have had $2.8 billion for projects throughout 
the Great Lakes region. Every dollar we put into the GLRI 
actually delivers $3 in economic return. It is a real winner.
    In early January, we passed the new GLRI, which was led by 
Senator Portman and myself and Senator Tammy Duckworth and 
Senator Braun from the Committee. Under the bill, we have 
increased the authorization for funding from $300 million to 
$375 million in this fiscal year.
    I know you haven't yet released the requested funding. We 
are not sure what is in there. But I am just strongly 
encouraging you, we certainly hope that the $375 million will 
be in this year's budget. I don't know if you want to give us a 
preview right now, but we certainly think it is incredibly 
important that those resources be there.
    Mr. Regan. I can tell you that we agree with you that the 
resources should be there. We will be able to give you the full 
details of just how many resources are there. But we support 
the resource request.
    Senator Stabenow. Thank you so much. Let me now turn to 
something else related to water that I know you have a lot of 
experience with, and other colleagues have been talking about 
today. That is what is happening on PFAS.
    Even though Michigan has established its own drinking and 
groundwater standards for numerous PFAS, and I think we are one 
of the few in the country to really do that, the Department of 
Defense has been a challenge to work with when addressing PFAS 
found on a legacy basis, like Wurtsmith in northern Michigan.
    So as the EPA explores new drinking water standards and a 
hazardous designation under CRCLA, how will the EPA work with 
the Pentagon to accelerate cleanup and remediation at 
decommissioned bases?
    Mr. Regan. To answer your question, we will work directly 
with DOD. But for scheduling issues, Secretary Austin and I 
were planning to sit together with our teams Monday before last 
to tackle this issue for the first time in a scheduled meeting. 
But he and I have talked about how we plan to tackle this issue 
together.
    So we know it is a very important issue. I know first hand, 
coming from North Carolina, and dealing directly with the PFAS 
issue in North Carolina being also one of the most military 
friendly States in the country, how important this opportunity 
is.
    So I can commit to you that Secretary Austin and I have 
already had some outreach on this topic, and plan to look at 
ways that we can work together as we look at the drinking water 
standard, as we look at the hazardous designation, and as we 
collectively look at remediation and cleanup all across the 
country.
    Senator Stabenow. Great. Really important. I am glad to 
hear you are having those conversations, and I hope it will 
really result in some much quicker action, not only in 
Michigan, but I know for colleagues across the country.
    One final question. I first want to thank you for the EPA's 
decision on February 22nd to support the 2020 decision of the 
U.S. Court of Appeals for the 10th Circuit, which found that a 
number of small refinery exemptions approved by the previous 
Administration were inappropriately issued. I wonder if you can 
tell us what additional actions the EPA can take this year, and 
just as one example, how can EPA address the backlog of 
pathways that qualify various feedstocks for biofuel used to 
fuel vehicles and in the production of electricity for EVs?
    Mr. Regan. The position that we have taken is we believe 
that the 10th Circuit's reading of the law is the correct 
reading. We know that this issue will be or is before the 
Supreme Court. So the agency is awaiting the ultimate decision 
of the Supreme Court, and we will govern ourselves accordingly 
and follow the law.
    As it relates to volumes, we know that there is a backlog 
in establishing the volumes for the years 2019, 2020. And we 
have to set volumes for 2021 and 2022.
    We are working on that backlog. There is a lot of time that 
we have to make up. But we are focused on ensuring that the 
intent of the RFS is met and that EPA does its part.
    Senator Stabenow. Thank you so much.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you, Senator Stabenow. Thanks for the 
great work you do on the Ag Committee, too, with the overlap on 
environmental issues. Thanks so much.
    Senator Stabenow. Thank you.
    Senator Carper. We have been joined by Senator Mark Kelly 
from Arizona.
    Senator Kelly, thanks for joining us, and you are 
recognized.
    Senator Kelly. Thank you, Mr. Chairman. The acoustics are 
not great in this room. Just an observation. Maybe it is the 
sound system.
    Administrator Regan, thank you for being here today. I may 
have a PFAS question as well, but first I want to ask you about 
abandoned uranium mines.
    There are over 500 abandoned uranium mines on the Navajo 
Nation. I was really pleased to see the outline of the EPA's 
fiscal year 2022 budget proposal and how it includes more than 
$900 million for a new accelerating environmental and economic 
justice initiative.
    Will the EPA's existing work on abandoned mine cleanup be 
included as part of this initiative?
    Mr. Regan. I believe that will have some role in those 
activities. Where EPA's role is appropriate in partnership with 
our other sister agencies, we will be there to focus on that 
issue.
    Senator Kelly. These uranium mines, as you know, are 
affecting the health of thousands of Navajo people.
    How will this work on this new initiative, fit into the 
existing work outlined by the EPA in the 10 year plan to 
address impacts of uranium contamination on the Navajo Nation 
which was released back in January?
    Mr. Regan. Part of our work is improving, at the 
President's directive, he has indicated that all agencies need 
to improve the consultative process with our tribal leadership. 
So what we are doing is we are engaging there to look at these 
contamination issues, especially the pervasive issues that 
impact water quality, not only from a public health standpoint, 
but from a cultural impact as well.
    So as we look at deploying these resources around 
environmental justice, environmental equity, and sort of these 
reclamation issues, we are very sensitive to engaging these 
stakeholders as we look at the best way to move forward.
    Senator Kelly. Thank you. I look forward to seeing progress 
on the uranium mine cleanup issue on the Navajo Nation.
    On another topic, in 2015, the Obama era EPA issued 
national minimum criteria for existing and new coal combustion 
residual landfills. These regulations, which were finalized in 
November 2020, including a pilot program which allowed 
facilities to conduct alternate liner demonstrations. In two 
Arizona facilities, the Coronado Generating Station and the 
Apache Station, they each applied for the program in November 
2020.
    But to date, the EPA has not provided an update on these 
applications. So they applied for this program to conduct these 
demonstrations with this alternate liner in their landfills. 
This delay is jeopardizing the success of these pilot projects 
and placing significant costs on these facilities in the State 
of Arizona.
    Given that there is no active litigation related to this 
rule, what is the EPA's timeline for reviewing the CCR Part B 
applications?
    Mr. Regan. I just recently had a briefing on this a couple 
of weeks ago. I think that as we are taking a look at the past 
actions of the previous Administration, there is an analysis 
being done to ensure that as we make decisions, especially as 
we look at lining and technological opportunities to prevent 
water quality impacts, that the best science is used to protect 
public health.
    I know that my team is actively reviewing these 
applications in terms of exactly where we are in that review 
process. I can have staff get back to you on that, just so that 
you have some certainty and know what to expect.
    Senator Kelly. I would really appreciate that.
    I know Senator Stabenow asked about PFAS, and we don't have 
much time. We have an issue, as you probably know, at Luke Air 
Force Base recently, which is right outside of Phoenix. They 
had to issue some warnings to households and businesses near 
the base about elevated PFAS contamination in the drinking 
water.
    This is in addition to existing PFAS contamination around 
other bases, Davis Moffett in particular, which is in Tucson. 
These contaminations are especially concerning to me, because 
it is Arizona, and we don't have a lot of water like other 
States do. Aquifers are an important source of our drinking 
water. As drought conditions worsen, that becomes more 
critical.
    Tell me if you already answered this for Senator Stabenow, 
but I understand you announced the creation of an EPA council 
on PFAS yesterday. How will the work of this council help EPA 
provide a national drinking water standard, or promulgate CRCLA 
regulations?
    Mr. Regan. I think it is complementary to that. I know for 
sure that when we look at the increase in the 2022 budget, when 
we look at the President's American Jobs Plan, there are 
significant resources there to take a look at PFAS.
    So as we continue the work that we are doing to set the 
drinking water standard and look at the proper designation, 
what I have decided to do is instruct this council to look 
across EPA more broadly so that we can go beyond just the 
drinking water standard, and looking at the designation and 
think about comprehensively across all of our programs, what 
can we do to bring the full force of EPA to begin to remedy 
these issues that we are seeing all across the country.
    In addition to setting these standards and designations, as 
you know, and as you rightfully pointed out, there are a lot of 
remediations that need to occur. We need to have resources at 
the Federal level to begin to jump start some of that cleanup 
now.
    I spent about an hour and a half yesterday with individuals 
from all across the country outlining for me personal stories 
about their particular impacts and exposure and family loss and 
personal loss based on PFAS. This is a top priority for this 
Administration.
    Senator Kelly. Thank you for making it a priority. I really 
appreciate that.
    Thank you, Mr. Chairman.
    Senator Carper. You are welcome. Thanks for joining us 
today, Mark.
    Senator Ernst, good to see you. You are recognized.
    We have been joined by Senator Sullivan, who I think is on 
deck.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, Administrator, for being in front of us today. I 
appreciate it.
    As an Iowan who strongly believes in our renewable fuel 
standard, we will start in that area.
    Administrator, recent studies indicate that the greenhouse 
gas reductions from the first generation conventional corn 
ethanol are almost 50 percent relative to gasoline. When 
properly administered, the RFS has the ability to dramatically 
reduce emissions from our transportation sector.
    But I am growing increasingly concerned that every time an 
Administration official talks about biofuels, they only do it 
in the context of the new fuels and the new markets such as 
aviation and marine fuels. Can you please set the record 
straight on where the Administration is with their commitment 
to ethanol and biodiesel usage in the transportation fleet of 
today and of the future?
    Mr. Regan. I think that is an excellent question, and I 
will say that the President has indicated from day one that 
agriculture is at the table. Secretary Vilsack and I are having 
these conversations. There is no intent in terms of exclusion 
when we talk about the promising future of electric vehicles, 
or when we talk about the promising future of advanced 
biofuels.
    The reality is that as we talk about these promising 
futures, we have to deal with here and now and a glide path to 
get to these promising futures. What we know is that ethanol 
plays a significant role in providing those resources here and 
now, today, and will evolve as we start to look at the new 
futures for advanced biofuels and electric vehicles.
    Senator Ernst. Do you think that corn ethanol will still 
continue to have a place, and do you see it having a larger 
role in the future, a smaller role? What do you anticipate?
    Mr. Regan. I think that is where I am engaging with the ag 
community, with the farm bureau, with ag CEOs, to best 
determine where they believe the markets will go, to best 
understand where they believe the evolution of ethanol will be. 
It is our job to ensure that that vision coincides with the 
vision that we see for the lowest carbon economy in the future.
    Senator Ernst. I appreciate that. I hope you continue to 
work with the stakeholders. They will be very valuable in 
providing input. But you know, again, strong advocate for the 
RFS. I think it has a significant role to play in reducing 
greenhouse gas emissions.
    Administrator, in a recent House hearing, you said in 
regard to WOTUS, we don't have any intention of going back to 
the original Obama Waters of the U.S. verbatim. That was 
welcome news to me and to many of Iowa's farmers and ranchers.
    Now that you have committed to not reinstating the exact 
Obama rule, what should we expect to see if you decide to make 
changes? Will it be something that goes even further than the 
Obama Waters of the U.S. rule? Or will it be something closer 
to the President Trump administration's rule?
    Mr. Regan. I think that that statement was to indicate that 
we are just not going to pull a rule off the shelf, especially 
after we have learned so much over the years. So that is not to 
be dismissive of what was done in the past. But I think there 
are some lessons learned.
    We are also not quite satisfied that the Waters of the U.S. 
developed under the Trump administration is as protective of 
water quality as it could be, while not placing administrative 
burdens on our small farmers.
    What I am not willing to do is prejudge the outcome without 
an earnest engagement with our ag community. I have pledged to 
engage with our agriculture community. I pledge to work with 
USDA and Secretary Vilsack. We are going to set up a structured 
stakeholder engagement where we actually sit and listen to 
those who are impacted by our regulations and come to some 
conclusions on what is the best way to move forward without 
ping ponging back and forth, protecting our water quality, and 
not overburdening our farmers.
    Senator Ernst. Good. Stakeholders, again, very, very key 
here.
    The Biden administration has had two recent opportunities 
to demonstrate that low carbon biofuels have a place in their 
greenhouse gas reduction efforts. A $2.3 trillion 
infrastructure bill, and most recently in the new 2030 emission 
target released last week, but neither of these contain much 
mention of or support for biofuels. So I am growing, again, 
increasingly concerned that every time the Administration talks 
about biofuels that they continue to do it in the same manner.
    As we are looking at that, can you agree that advanced 
biofuels should be part of the Nation's strategy to address 
carbon emissions?
    Mr. Regan. I think the President is very clear on this, 
that agriculture is at the table and that biofuels play a role 
in reducing our carbon footprint, and so do many of the 
voluntary practices of our ag community to capture carbon, and 
to operate in a sustainable manner.
    So again, I think the President has been very clear that 
agriculture is at the table and plays a significant role.
    Senator Ernst. Good. And we would love to hear our 
Administration officials really talking about the place that 
ethanol and biodiesel play, whether it is reducing greenhouse 
gas emissions or otherwise providing affordable fuels to our 
American citizens.
    We really want to hear more about that, to understand the 
commitment behind the RFS from this current Administration.
    Thank you, Administrator. I really appreciate your time.
    Mr. Regan. Thank you.
    Senator Carper. Senator Ernst, thanks so much for joining 
us and raising those important issues.
    Senator Sullivan has joined us.
    Senator Sullivan, welcome aboard.
    Senator Sullivan. Thank you, Mr. Chairman.
    Administrator, welcome. Congratulations again on your 
nomination and confirmation.
    I want to talk a little bit about this issue that has been 
highlighted a lot by the Biden administration on racial equity 
as it relates to environmental issues, job opportunities. I 
want to talk about the very large population of Alaska Natives 
in my State who I think often get left out of this conversation 
on racial equity.
    Two areas, water and sewer, and broader economic 
opportunities. As you and I discussed, there are over 30 
communities in Alaska--and it shocks most Americans--that don't 
have water and sewer, don't have flush toilets, don't have 
running water.
    When you get up to Alaska, Administrator, you will see 
these are some of the most patriotic communities in the 
country. Alaska Natives serve at higher rates in the U.S. 
military than any other ethnic group.
    Can you commit again to work with me? We have had a number 
of good, bipartisan pieces of legislation through this 
Committee to help disadvantaged communities that essentially 
don't have water and sewer. Most Americans assume every 
American have those. We don't. Thousands of my constituents, 
and it is really outrageous. I would like very much your 
commitment. I think you are committed to that, but that is 
certainly in my view a racial equity issue.
    Mr. Regan. I will tell you, we are committed to it. I 
recognize that in Alaska there is about $1.2 billion and $1.5 
billion worth of wastewater and water infrastructure needs. You 
will see that that is central to the 2022 budget request here 
at EPA, is to provide those precious resources to those who 
need them most.
    You will also see that request in the American Jobs Plan, 
with that $111 billion request. Your State and so many States, 
we estimate $743 billion worth of water infrastructure and 
infrastructure needs.
    To your point more specifically, not only are we looking at 
those infrastructure investments, but we are looking at water 
affordability as well, and water quality. So you have my 
commitment to work with you.
    Senator Sullivan. Thank you.
    Let me go to another issue, and this is a broader economic 
opportunity. This is where I hope I can get your commitment.
    I am dubious, though, there have been nine Executive Orders 
issued by President Biden targeting Alaska, nine. I don't think 
there is any other State in the country, certainly not 
Delaware, as I have said in Senate floor speeches. If there 
were nine Executive Orders targeting the economy and jobs of 
Delaware, the Chairman, everybody else would be on the floor 
pounding their fists. But my State seems to get a lot of love 
from this Administration. We don't like the love, right, 
because it is job killing, it is going after oil and gas jobs.
    Let me show you a chart here very quickly. I think I have 
showed this to you before, Administrator. This is from the 
American Medical Association, if you can see this. This was a 
study from 1980 to 2014, what places in America did life 
expectancy go up or down. In my State, it went up the most, the 
purple, the blue, that is up to 13 years, in 25 years, people 
lived longer. No policy indicator of success more important 
than the people you represent live longer.
    Here is my concern. They live longer in my State because 
they had jobs, because they had resource development, because 
they are developing oil and gas. Do you think we still need oil 
and gas in America today?
    Mr. Regan. There is no doubt that natural gas plays a 
critical role.
    Senator Sullivan. And oil?
    Mr. Regan. And oil.
    Senator Sullivan. I appreciated your comments during your 
confirmation process. You didn't want to put anyone out of 
work, that wasn't your goal, correct?
    Mr. Regan. That is correct.
    Senator Sullivan. So right now, unfortunately, we have a 
lot of Executive Orders that are doing just that. Gina 
McCarthy, John Kerry are essentially saying we need to limit 
and unilaterally restrict production of American energy.
    The mayor of the North Slope Borough, Inupiat Alaska Native 
leader, in an op-ed last year in the Wall Street Journal 
entitled Goldman Sachs to Native Alaskans: Drop Dead, I would 
like to put this in the record, Mr. Chairman.
    Senator Carper. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Sullivan. He mentioned that as investors are being 
told, don't invest in Alaska's energy sector, John Kerry is 
doing that, by the way, that this is a concern that these banks 
are ``demonstrating the condescending subtly racist attitude 
that has been a hallmark of the way westerners deal with 
indigenous people.'' That is from this article, saying, don't 
invest there without asking the Native people there.
    The vast majority of the people I represent want economic 
opportunity in these places, including in the energy sector. I 
think this is an issue of racial equity that doesn't get 
mentioned very much. There is this project, the Willow Project, 
that we have talked about, 2,000 direct jobs at stake right now 
the Biden administration has put on hold.
    Administrator, can I get your commitment to continue to 
work with me not to kill these really important American jobs 
that have already been permitted, that in my State often impact 
Alaska Native communities overwhelmingly, and they are 
overwhelmingly supportive of them? I think it is putting racial 
equity on its head to target oil and gas jobs in communities 
that are primarily indigenous. What is your thinking on that?
    Mr. Regan. My thinking is, and I am proud that this 
Administration has pledged to put environmental justice and 
equity at the center of all we do.
    Senator Sullivan. Is it racial equity and environmental 
justice to put Alaska Natives out of work just because they 
work in the energy sector?
    Mr. Regan. What I can say there is I know that the 
President has put a pause on these types of activities, and 
this actually falls in Interior's bailiwick, Secretary 
Haaland's. My pledge to you is to partner with you to be sure 
that everything that we do is racially sensitive, equitable, 
and culturally sensitive. That is part of EPA's DNA.
    And I can tell you that EPA's attitude as it relates to oil 
and gas is focused on deploying regulations that accentuate the 
technologies available to reduce methane. It is not to target 
individual projects; it is not to kill projects. It is focused 
on the opportunity that we see with the application of 
technology that we can use domestically and export 
internationally.
    So you have my word that we can work together to focus on 
that application of technology, do it in a culturally and 
racially and economically sensitive way because that is what 
EPA's aim is for.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Carper. You are quite welcome. Thank you for 
joining us today and for those questions, Senator.
    We may be joined remotely by some others or in person by 
some other members, so I can go last.
    How are you holding up down there?
    Mr. Regan. It is a friendly crowd; I am doing well.
    [Laughter.]
    Senator Carper. Do you feel like this is a home game or an 
away game?
    Mr. Regan. Back home.
    Senator Carper. Oh, good.
    We discussed a little bit earlier, the President announced, 
I think it was last week, that our country would take actions 
by the end of this decade that would reduce our Nation's 
greenhouse gas emissions. I think it was like 52 percent below 
what they were in 2005. This announcement helps, we think, we 
hope, to put our country on a path toward net zero emissions by 
2050, as you know, a goal I have supported for some time.
    As you mentioned, the Environmental Protection Agency is 
going to play a pivotal role in helping us to meet these 
ambitious but achievable goals. Your agency has regulatory 
authority under the Clean Air Act and AIM Act, which has been 
mentioned here, that deals with HFCs--hydrofluorocarbons--and 
the phase down of those over the next 15 years. You have 
research programs and you have grant making authority through 
DERA and other authorities.
    My question is, how important is it, in your judgment, that 
we meet the President's climate goals?
    Mr. Regan. It is absolutely important that we meet the 
President's climate goals, again, not only because it is an 
opportunity to save the planet and mitigate against the climate 
crisis. But this is a significant opportunity for this country 
to create millions of good paying jobs and really leverage 
market potential and technological advancements. This is a win-
win-win for our country.
    Too often, we are talking about or others are talking 
about, what China is doing, what India is doing, this is about 
American leadership. I think that the President has rallied the 
world and indicated that we are back, that science is back, and 
this is an important moment for this country.
    Senator Carper. Thank you. Achieving the President's 
climate goals is going to require EPA to be performing at its 
best. I understand over the past 4 years, EPA lost nearly 1,000 
staff members from its headquarters and regional offices. I can 
imagine that this sharp decrease in staff could hinder the 
agency's ability to effectively carry out its core duties and 
function to protect public health and the environment.
    Could you just take a minute to share with us this morning 
any steps that you have taken or plan to take to be able to 
rebuild the agency by backfilling key positions and bringing on 
more staff? How does this budget proposal assist those efforts?
    Mr. Regan. Thank you for that. I think it starts with 
rebuilding morale. No one wants to work at a place where they 
don't feel valued. We spend quite a bit of time rebuilding the 
morale in this agency and letting our staff know that they are 
valued.
    We are hoping that we can recruit back many of the 
employees that we lost. We lost over 1,000 employees over the 
past 4 years. But we don't only want to look at what we lost, 
we also want to recruit and retain the best and the brightest, 
because we are looking ahead. We are looking toward the future.
    So my leadership team is really rallying around lifting the 
morale, lifting the organizational health, and putting a 
recruitment and retention process in place to get the best and 
the brightest at EPA. Because we need to be in fighting shape.
    This budget is a serious signal to the agency that we are 
being invested in, and we are going to be given the tools we 
need to protect the environment, public health, and the 
economy.
    Senator Carper. Several years ago, I was privileged to 
Chair another committee, Homeland Security and Governmental 
Affairs Committee. We found there is an annual report done 
measuring morale, good or bad, among major Federal agencies. 
Year after year, we found that the agency with the lowest 
morale was Homeland Security.
    Jeh Johnson, you may recall, was the Secretary; Mayorkas 
was the Deputy. They concluded one of the causes for the low 
morale was the lack of Senate confirmed leadership within the 
agency. I would describe it as executive branch Swiss cheese.
    Tom Coburn and I went to work. He was the ranking 
Republican on the committee at the time. We went to work to try 
to make sure we addressed that.
    And we did. We work very hard, as I am sure you know, to 
try to make sure that the President's nominees to help fill out 
the leadership team at EPA are pursued and confirmed. That is 
why we felt that Janet McCabe was so important last week.
    I just wanted to mention that in terms of morale. We hope 
that the leadership team, an excellent leadership team that has 
been confirmed, will help raise that morale and do it sooner 
rather than later.
    Earlier this month, you announced a series of actions you 
plan to take to advance environmental justice, one of which was 
at a roundtable that I had the opportunity to join. You have 
also directed EPA staff to incorporate environmental justice 
considerations into their work across the agency. I am 
encouraged about this effort to advance environmental justice. 
I think we all are.
    My question would be, will you share with us any other 
actions you have taken or plan to take in order to address the 
historic failure to meet the needs of disadvantaged 
communities, and how does this budget proposal assist those 
efforts?
    Mr. Regan. This budget proposal is critical. This budget 
proposal is critical as well as the American Jobs Plan. There 
are precious resources that are tucked in these proposals that 
give us the ability to help these communities that need it the 
most through grant applications, through advanced monitoring 
for air quality and water quality. And just the ability to 
provide the infrastructure, so that these communities can 
communicate with us and use the data we provide to help uplift 
their communities through health, through equity, through 
economic opportunities.
    So EPA has pledged that environmental justice and equity 
will be part of our DNA. We plan to meet that moment.
    Senator Carper. All right, thank you.
    I understand Senator Padilla is on Webex.
    Senator Padilla, are you there?
    Senator Padilla. Yes, I am, Mr. Chair.
    Senator Carper. We will go ahead and recognize you at this 
time.
    Senator Sullivan, I understand you have another question. 
After he goes, you are next.
    Alex, go ahead, please.
    Senator Padilla. Thank you, Mr. Chair.
    First, Administrator Regan, I want to begin by thanking you 
for following through on President Biden's commitment to 
reexamine the States' One Rule. I certainly appreciate your 
support of California's longstanding statutory authority to set 
greenhouse gas and zero emissions vehicle standards.
    California is and has been a national leader in the fight 
against climate change and eliminating toxic pollution from our 
transportation sector. So I appreciate your early leadership 
and early collaboration.
    I also want to elevate yet another issue that I am hoping 
is a good topic for collaboration in my State. It begins with 
personal experience. I know first hand how outdated school 
buses expose children to harmful pollution. I experienced it 
every day in the years when I was in junior high and elementary 
school, riding the school bus to and from in the San Fernando 
Valley. That smell of diesel exhaust that would fill our lungs, 
not just mine, but every student that was on that bus on the 
way to school, on the way from school. I can still smell it 
today.
    Speaking of today, we know that there are 25 million 
children across the United States that are still exposed to the 
same diesel exhaust when they ride 500,000 predominantly diesel 
buses. We know it is not just an environmental impact, it is 
also a health impact, and it is an academic impact, because 
when the kids have health issues, respiratory issues, because 
of the exhaust that they are breathing. It affects their 
ability to learn, and their academic performance.
    So as we work to build back better, and address climate 
change, I believe it is imperative that we work with school 
districts to supply the resources necessary to accelerate the 
deployment of zero emission electric school buses to reduce the 
exposure of children to greenhouse gases, while improving the 
public health, the environment, and academic learning.
    So I am proud that, along with Senator Warnock and 
Representatives Cardenas and Hayes, that we introduced a Clean 
Commute for Kids Act this last week. It seeks to build on an 
initial proposal in the infrastructure plan. It goes just a 
little bit bigger, it goes a little longer, to accelerate this 
transition.
    So I am asking, Administrator Regan, why you believe this 
plan to work with districts to accelerate the transition to 
zero emission electric vehicles, is good and leads us to more 
equitable, sustainable transportation infrastructure?
    Mr. Regan. Thank you for that, and thank you for your 
leadership. I agree with you that electric school buses are 
critical for not only the health and well being of our 
children, the precious cargo, as they go to and from school. 
But to the point you just made, it really has an impact, not 
only on them physically, but mentally and emotionally as well, 
if they cannot breathe while they are sitting in class 
attempting to learn.
    Another benefit of electric school buses, and I have had 
this conversation with rural electric cooperatives, is once 
that precious cargo is dropped off, and those school buses are 
parked, their batteries become available to plug into the grid 
and begin to provide a level of reliability and certainty to 
that grid that they don't have to rely on dirtier fuels, fossil 
fuels and the like. So there is a win-win there. There is a 
transportation piece to that; there is a public health and 
education piece to that.
    But then you dovetail back into infrastructure. Electric 
vehicles, in general, can help shore up our grid and create 
reliability and capabilities. I think electric vehicles are 
just so important for greenhouse gas emissions on the road as 
well as those that are generated through electricity 
production.
    Senator Padilla. Thank you very much. I have limited time 
left, I want to talk about one other issue that we have 
discussed in the Committee prior, and that has to do with not 
just the need to invest in water infrastructure, but water 
affordability.
    We know that in California alone, one in eight households 
in my home State are a little bit behind or more than a little 
bit behind on their water bill to the tune of $1 billion. It is 
a much bigger number across the country, as you can imagine.
    As we work toward investing in our infrastructure, can you 
speak to the wisdom of a national water affordability program, 
to help people who are struggling to keep up with water rates, 
let alone face higher bills, to help fund some of the 
infrastructure investment that is needed?
    Mr. Regan. It is critical that we focus on water 
affordability. We are doing that through our 2022 budget 
request. We are also doing that throughout the President's 
request of $111 billion in the American Jobs Plan.
    Water affordability is critical. The good news is EPA has 
experience here. We have existing water financing programs that 
we have been operating for a number of years where we have 
invested billions of dollars and created hundreds of thousands 
of jobs. I believe that as we take a closer look at the 
resources that we are asking through the American Jobs Plan and 
our budget that we will be able to do a better job of 
dovetailing water affordability into our traditional grant and 
loan programs.
    To the point you just made, there are so many water systems 
across this country that cannot afford a zero interest loan, 
because they are just in that bad a shape. That is where the 
grant programs come in to help them begin to tread water a 
little bit better.
    Senator Padilla. Thank you very much. I look forward to our 
continuing work together.
    Senator Carper. Senator Padilla, while you are still with 
us, before I recognize Senator Sullivan again, I would just 
mention a couple of things.
    Senator Sullivan. Thank you, Mr. Chairman, I just have one 
comment. And then----
    Senator Carper. Senator Sullivan, just wait 1 minute. I 
want to mention a point that he has raised, and then you are 
recognized. If you would just give me a minute.
    Senator Padilla, you are probably familiar with something 
called the Diesel Emission Reduction Act. It is legislation 
that Senator George Voinovich and I introduced 10, 15 years 
ago. It has continued to enjoy bipartisan support. Senator 
Inhofe is my wingman on that now.
    We continue to push for increased funding for the Diesel 
Emission Reduction Act, which should help address the issue 
that you raised here. I would ask you to feel free to join us 
as a partner in that.
    The other thing I would say, we are really encouraged by 
the advances that are being made for automotive of all kinds, 
including F-150 trucks, all kinds of cars, trucks, and vans 
using electric vehicles and becoming more affordable and 
actually much greater ranges.
    Sometimes overlooked are hydrogen fuel cells, the use of 
hydrogen and fuel cells to create electric powered vehicles. 
The only waste product is water, H<INF>2</INF>O.
    What I am told by people a lot smarter than me is going 
forward into the future, we are going to continue to use more 
and more, and see more and more electric powered cars, trucks, 
and vans on the road. But as time goes by, hydrogen and fuel 
cells with larger vehicles, trucks, mid-size and large trucks 
will be more common. So there is a combination.
    As we work on our surface transportation legislation, we 
are committed to helping create corridors of charging stations 
and fueling stations, fueling stations for hydrogen. So it is 
going to take a combination of those two.
    Thanks so much, Senator Padilla.
    Senator Sullivan had one last question. Then the gentleman 
from Mississippi.
    Senator Sullivan. Just a comment and question. Thank you, 
Mr. Chairman.
    Just a word of caution, Administrator. You don't get the 
good paying jobs in the future, which is what the Biden 
administration is talking about, millions, by killing good 
paying jobs in the present. And you don't get to environmental 
justice and racial equity by killing good paying jobs and 
economic opportunities in Alaska Native communities.
    So I am going to keep a close eye on that. I appreciated 
your responses to my questions today. And I appreciated you 
being here.
    Here is my final question. It is an important one. You are 
here right now. Senate confirmed, taking questions, oversight. 
That is the constitutional role that you and we have.
    I was surprised to see in the New York Times 8 days ago an 
article, I would like to submit it for the record, Mr. 
Chairman.
    Senator Carper. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Sullivan. It was on climate czar Gina McCarthy. It 
mentioned she was the ``most powerful climate and energy 
official in the country other than Mr. Biden himself.'' Shocked 
again to see you weren't mentioned in the article at all, not 
once. She actually claimed she was the ``orchestra leader for a 
very large band'' on these issues.
    You might recall my concern, Senator Capito's concern 
during your confirmation hearing, that she would be, with her 
radical activist driven views, out of the mainstream, she 
wouldn't have been able to get confirmed here, that she would 
be in charge of these issues, EPA issues, not you. And this 
article again just 8 days ago led me to raise this question 
again.
    We can't call her to do what you are doing, and again, I 
appreciate what you are doing, to testify, to have oversight, 
to hear what she is really up to. This article made it sounds 
like she is driving the whole agenda, the regulatory agenda, at 
EPA.
    So let me ask you this again. Is czar McCarthy dictating 
the agenda at EPA? It is a concern of so many of ours. The New 
York Times has this glowing piece about her. You are not 
mentioned once. Who is in charge? Who can come here and 
testify?
    Again, I appreciate your testifying. But I don't appreciate 
the fact that her views seem to be overriding yours.
    Mr. Regan. I can say that I haven't read the article. I 
think the indication there, though, is that Gina is working 
across all of our agencies. I am not sure if the article is 
calling me out specifically. I think what Gina----
    Senator Sullivan. Well, it was almost all on EPA.
    Mr. Regan [continuing]. Maybe mentioned, there is a whole 
of Government role. I think Gina is doing a really good job of 
conversing with me, and DOT, and DOE, and USDA, all across the 
board.
    I can assure you that Michael S. Regan is in charge at EPA. 
I can assure you that when you look at the role that EPA plays 
in regulatory development and all the conversations that we are 
having that those conversations are being had within the 
agency, and we are following the law, and we are exercising our 
statutory authority.
    At any given time, with any member, I am willing to show up 
and have a conversation about any aspect of what we are doing. 
I think if we sit down and talk about what we are doing, you 
can pick apart everything that we are doing, and you will see 
that those ideas, that information, that analysis and that good 
work is coming out of EPA and the staff at EPA.
    Senator Sullivan. Good. I appreciate that, Administrator. I 
appreciate you being here, answering these questions, tough 
questions, easy questions. But it is important for us to know 
who is in charge.
    Thank you, Mr. Chairman.
    Senator Carper. You bet.
    A couple of years ago, Senator Sullivan, when I was 
elevated, being Chair of the Homeland Security Committee, there 
was an article in the New York Times as well that indicated who 
the new Chairs were going to be. Democrats were suddenly in the 
majority, and it was noted I was going to be Chair of the 
Homeland Security and Governmental Affairs Committee.
    It went on to say that I was a Senate expert, a Senate 
expert, on cyber security. I showed this to my wife, I said, 
Martha, look at this, your husband is now the Senate expert on 
cyber security. What do you have to say about that? Her 
response was, in the land of the blind, the one-eyed man is 
king.
    [Laughter.]
    Senator Carper. Senator Wicker.
    Senator Wicker. Thank you very much, Mr. Chairman. It is 
great to be here. I will not take a lot of time.
    Let me just say, I want to renew my invitation to the 
Administrator to come to Mississippi and see a place called the 
South Delta, were in 9 of the past 10 years, we have had 
devastating floods. I think the Administrator is going to be 
able to do this, Mr. Chairman.
    We have a plan that developers, homeowners, small 
businesses, environmental activists should all support. I think 
we finally got it right. It absolutely does involve the 
environmental justice that Senator Sullivan was talking about. 
But these floods, for the last 9 out of 10 years, have 
devastated wildlife and destroyed many people's livelihoods.
    I think we have a plan now that enhances and protects 
wildlife, will save animals and fish and birds, and give 
certainty to people in this area that actually need help. 
Frankly, it is some of the most disadvantaged people anywhere 
in the country that are devastated by this flooding that we 
have not been able to come to a consensus about.
    So I want to renew my invitation to Mr. Regan and to say I 
appreciate the opportunity to work with you in the future.
    Mr. Regan. Absolutely.
    Senator Wicker. I yield back my time, Mr. Chairman, and 
thanks for extending this hearing so that I could get back from 
my emergency visit to the dentist.
    Senator Carper. Just for you. While you are here, I 
mentioned this earlier, we appreciate the leadership that you 
and Senator Ben Cardin have provided on some aspects of our 
water infrastructure legislation, which will be debated and 
hopefully adopted tomorrow on the floor.
    We are grateful for the contributions on that to you and 
your staff. Thank you.
    Senator Wicker. Thank you, Mr. Chairman.
    Senator Carper. You bet.
    I am going to ask a couple more questions, and I will ask 
again, Administrator Regan, are you OK?
    Mr. Regan. Yes, doing well.
    Senator Carper. I said, check with his staff to see if he 
is able to handle another question or two. They said, go for 
it.
    As a follow up to, I think it was Senator Kelly's question, 
with respect to low income and communities of color bearing a 
disproportionate amount of the impact from polluted Superfund 
sites, according a 2020 report, 70 percent--70 percent--of the 
country's most environmentally contaminated sites are located 
within one mile of federally assisted housing.
    I will say that again. According to a 2020 report, this is 
amazing, 70 percent of the country's most environmentally 
contaminated sites are located within one mile of federally 
assisted housing.
    Could you talk for a minute or two about any plans you may 
have to address that longstanding problem?
    Mr. Regan. Absolutely. Thank you for that question. This is 
why the 2022 budget request and the American Jobs Plan is so 
important. When we look at the resources in both of these 
places, they increase EPA's ability to expedite the cleaning up 
of brownfield sites and Superfund sites, which to the point you 
just made, are located in these communities that already bear a 
disproportionate burden.
    I am happy to say that I have had a couple of conversations 
with Secretary Marcia Fudge and HUD to think about how we can 
tag team this effort as well.
    Senator Carper. Good. Keep talking. That is an amazing 
number. Isn't that an amazing number? Have you heard that 
before, 70 percent within a mile of federally assisted housing? 
That is unbelievable.
    All right, next question with respect to renewable fuel 
standards, as discussed a bit earlier with Senator Ernst and 
others. Recently I wrote a letter along with my colleague 
Senator Chris Coons and Congresswoman Lisa Blunt Rochester, to 
you in regard to renewable fuel standards. In the letter, we 
mentioned the need for EPA to take action to address the 
volatility in the RFS compliance markets. This includes 
providing some compliance flexibilities that reflect the COVID 
challenges, doing more to address market manipulation, and 
finally, acting on the applications for new, advanced biofuel 
pathways and fuels.
    My question is this, do we have your commitment that you 
and EPA, your EPA team, will make it a priority to work to 
stabilize the RFS market and that the program works as 
intended? Also, will you commit today to meet with myself and 
others in our delegation to further discuss this issue?
    Mr. Regan. Absolutely. I can commit to both of those.
    Senator Carper. All right, great.
    We have in our State an oil refinery. When I first came to 
Delaware, right out of the Navy, at the end of the Vietnam war, 
I enrolled at the University of Delaware to get an MBA. One of 
my requirements in a course I took my first semester of 
graduate school was a course looking at the Delaware business 
that was under investigation, always under fire by the Federal 
Government or the State government for their alleged abuses and 
irregularities.
    I didn't know anything about Delaware. I had been there 
like 2 weeks, and I was in this course. I started reading the 
paper, they had one major daily paper. I started reading the 
paper to find out what business or company was maybe a good 
subject for me to cover in my report. And I just kept reading 
stories day after day after day, about the Getty refinery, 
which is one of the worst polluting refineries on the East 
Coast. Terrible place for all kinds of air emissions, water 
emissions.
    That was my introduction to that refinery. Today, the 
refinery is still alive and hanging in there, but a much, much 
better environmental steward, much, much better, incredibly 
better. And a part of that happened when I was Governor, and 
this man right over here, Christophe Tulou, was our secretary 
of natural resources and environmental control, your 
counterpart from Delaware. So we are proud of the progress that 
has been made.
    They provide job employment opportunities to about 1,000 
people in our State, which is a lot of people in a little 
State, and good paying jobs. They have concerns with respect to 
the chaos that comes out of the RINS market. This is something 
that is real, it is a matter of concern to us. And at the same 
time, we think it is important that we create renewable fuels 
and that they are environmentally friendly and help us fly 
airplanes and send ships out to sea and so forth.
    So I appreciate your assurance, and we look forward to 
following up with you on this front.
    Vehicle emissions standards, I think I have been working on 
this since childhood. During your exchange with Senator Markey 
an hour or so ago, you discussed the revolution that is 
happening today in the automotive sector. Car company after car 
company announcing moves to electric vehicles and hydrogen 
powered vehicles as well.
    Ford announced that all of its vehicles that it sells in 
Europe will be electric by 2030; Jaguar will go electric in 
2025; Volvo has announced that it will sell only electric cars 
by 2030. Volkswagen has announced it plans to increase its 
sales of electric vehicles such that 50 percent of the vehicles 
it sells in the U.S. and China will be electric by 2030.
    Honda has announced plans for 40 percent of its sales to be 
zero emission vehicles by 2030, 80 percent by 2035, and 100 
percent by 2040. And General Motors has announced plans to 
produce only electric vehicles by 2035. GM is also in a 
partnership, I believe, with Honda, on fuel cells, which is 
something that is quite promising.
    And there are a number of companies, including Toyota, very 
much into fuel cells with hydrogen. I think there is at least 
one South Korean company, but there are a bunch. As I said 
earlier, the focus there is mid-size trucks, large trucks, and 
they put out a lot of carbon, a lot of greenhouse gases. So 
that is all encouraging and important.
    However, having said that, EPA hasn't typically factored in 
availability, the availability of electric vehicles in 
establishing emission standards. This is a big issue. I think 
it is too big to ignore.
    Your thoughts, if you will, will EPA consider the 
increasing availability of electric cars when setting vehicle 
emission standards? I will say this again, will EPA consider 
the increasing availability of electric cars when setting 
vehicle emission standards?
    Mr. Administrator, would you look for further 
correspondence from me on this issue? A couple of colleagues 
and I will be sending that to you.
    With that, my question is, will you consider the increasing 
availability of electric cars when setting vehicle emissions 
standards?
    Mr. Regan. We do. We take those market considerations under 
consideration, market dynamics under consideration. The 
availability of the technology that needs to be deployed, and 
the ability for the auto manufacturers to produce the vehicles 
and keep those jobs here in America.
    Senator Carper. All right. My staff and I are working on a 
letter with a couple of our colleagues to follow up on this. We 
would just ask you to be on the lookout for it.
    And I think that might be it.
    Senator Stabenow joined us by Webex an hour or so ago. She 
chairs the Ag Committee, and she is a new member of this 
Committee, and a very valued colleague and friend.
    We have in Delaware, we raise, I am told, maybe at one time 
more soybean than any county, in Sussex County, Delaware, maybe 
more than any county in America. Little Delaware, we raise a 
ton of corn. For every person who lives in Delaware, we have 
about 400 chickens. Most people don't think of Delaware as an 
agriculture State, but we are.
    One of the concerns we have in southern Delaware, we have 
some of the best beaches in the country, Rehoboth Beach and 
Bethany and Dewey and so forth. We are concerned about 
development, over-development of the areas close to our beaches 
and shores.
    One of the ways to combat that is to make sure that farmers 
make a good income and to keep the value of their farms and 
farming so attractive that they wouldn't wait to sell their 
farms. I am always looking for ways to do good things for our 
planet, for our environment, for our air, and create jobs and 
economic opportunity.
    Will you think out loud for a minute how we can take carbon 
sequestration, how can we take that technology and the ability 
to infuse that into the soil to enrich the soil to make it more 
productive and to create an economic model that rewards farmers 
for keeping, continuing to farm and to being even better 
environmental stewards than they are already? Is this something 
that you have thought about in North Carolina, or even at EPA 
since you have gotten there?
    Mr. Regan. Absolutely. I think that what you just described 
is an excellent opportunity and why the President has insisted 
that agriculture stay at the table.
    While we look at the opportunities to sequester carbon, we 
don't have to look at that through solely a regulatory means. 
It is an opportunity that USDA and farmers are proactively 
looking at, that we need to quantify and consider as part of 
the equation.
    I think it is an excellent opportunity for all of the 
reasons you just laid out. It keeps the farms in the family, it 
is a good revenue source, and it also helps with combating the 
climate crisis.
    Senator Carper. Thank you. I mentioned earlier, and I am 
not sure who was here, my wife and I come home from church on 
Sundays, we come home, and we fix breakfast in our kitchen, and 
we turn on the television and watch a fellow named Fareed 
Zakaria. He holds forth for about an hour. He has some really 
interesting stuff.
    This last Sunday, the last 4 minutes of his show he spent 
talking about how to, in times when the sun is not shining and 
the wind is not blowing, how do we make sure we have the 
ability to produce electricity. He focused on next generation 
nuclear power. It was enlightening and encouraging.
    I am a retired Navy captain, I spent a lot of years of my 
life on ships or submarines. I have been on a bunch of them. In 
all the 70 some years that we have been producing nuclear power 
for ships, submarines, and aircraft carriers, not one sailor 
has ever died from exposure to radiation.
    We have some interesting things, very interesting things 
that are going on in new technology with respect to advanced 
nuclear. This is something this Committee has been interested 
in. We passed legislation in this regard. You don't have to 
respond unless you want to, but this is something that we think 
is another arrow in our quiver, and we would be foolish to 
ignore it.
    Any thoughts you have, I would appreciate it.
    Mr. Regan. I agree with that statement. I can tell you, 
Secretary Granholm speaks very eloquently about where that 
technology is and how it is applicable, especially when we look 
at grid reliability and reducing the carbon footprint. So I 
think it is an excellent opportunity to advance the cause to 
fight climate change mitigation.
    Senator Carper. All right. Again, I am going to do some 
housekeeping right now, and then I will say thanks for one last 
time.
    For some final housekeeping, Senators will be allowed to 
submit questions for the record through close of business on 
May 12th. We will compile those questions and send them to you, 
Mr. Regan. We would ask that you try to reply to us by May 
26th, that is about 2 weeks.
    And with that, thank you for joining us today. This is 
something that we haven't done for a while, to have a budget 
hearing and have the Administrator here and to say what this is 
for this time, and be as forthright as you have been in your 
responses in this discussion. We look forward to doing it 
again, and again, and again. And maybe again.
    Thank you so much. My best again to your family, especially 
that young son of yours, Matthew, 8 years old. We will always 
remember, you did a great job at your confirmation hearing, but 
he sat right behind you for 3 hours, and he won the prize. Give 
him our best.
    With that, I think this Committee hearing is adjourned. 
Thanks.
    [Whereupon, at 12:10 p.m., the hearing was adjourned.]
    [Additional material submitted for the record follows. Due 
to size constraints some documents are not included below but 
are available in Committee files.]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
